p

No. 20-726
31u the 6uprente Court of the tiniteb btate0

In re Stephanie Michael
4-Y44,70*mreen.
ON PETITION FOR WRIT OF MANDAMUS TO
THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF TEXAS
44,-k,44:00)
SUPPLEMENTAL PETITION

Stephanie Michael, Petitioner Pro Se
2918 West Grand Pkwy N Suite 150-166
Katy, TX 77449
itsfubar2020@yahoo.com
(346) 779-1890

RECEWED
JAN 1 1 2020
oFFICE OF THE CLERK
SUPREME COURT, U.S.

(

01%
REC.-DYED:
SUPREME C OURT U
POLIDE4=-0MQ.E-.

len JAN 7 ,-PH 14: 32

INTRODUCTION
Pursuant to this Court's Rule 15.8, this supplemental
brief informs this Court Tanzin, et al v. Tanvir,et al,
592 U.S._2020 decided on December 10, 2020 is
relevant to this case. Upon Government's waiver of
response, In re Stephanie Michael is scheduled for
conference review on January 8, 2020. The Supreme
Court affirms U.S. Court of Appeals for the Second
Circuit determination Government was not entitled to
immunity from suit under the Religious Freedom
Restoration Act of 1993 (RFRA) because its "express
remedies provision permits litigants, when
appropriate, to obtain money damages against federal
officials in their individual capacities" for the
respondents in Tanzin, et al v. Tanvir,et al, 592
U.S._2020. The U.S. Court of Appeals for the Fifth
Circuit leaves to this Court to decide whether veteran
is deprived of right to "in the absence or inadequacy
thereof' remedy under provisions of the Veterans
Judicial Review Act of 1988 to bring "any applicable
form of legal action, in a. court of competent
jurisdiction." 5 U.S.C. 703(APA)
The mandamus petition presently before the court
with specificity addresses why agency regulations and
the text, legislative history and purposes of the
Administrative Procedure Act (APA), 38 U.S.C.
511(a), and Veterans Judicial Review Act of 1988 give
clear answer against Government's argument she has
no clear and indisputable right to remedy under
provisions of the Federal Tort Claims Act. It is
veteran's hope this supplemental petition aids the
Court in doing justice for this nation's veterans.
Congress permits litigants of claims involving VA
benefit matters to when appropriate, to obtain money
1

0

damages in circumstances like these relevant to this
supplemental brief "features a suit against
individuals, who do not enjoy sovereign immunity"
See Tanzin, et al v. Tanvir,et al, 592 U.S._2020 "An
action
against
the
United
States
under 28 U.S.C. 2671-2680 is the exclusive remedy
under these circumstances." See 38 CFR 14.605(a).
These questions of law are important to judges,
litigants and advocates. Resolution is necessary to
effect adherence to procedural requirements in such
cases— only this Court has plenary authority in this
circumstance.
ARGUMENTS
I. Questions of law relevant to Government privilege
rulings must be resolved consistent with
constitutional, statutory, and procedural
requirements.
There is no dispute between parties in Tanzin, et al v.
Tanvir,et al, 592 U.S._2020 and this mandamus
action qualified immunity is a bedrock principle of
judicial review of executive agency action. "The
doctrine of qualified immunity protects government
officials "from liability for civil damages insofar as
their conduct does not violate clearly established
statutory or constitutional rights of which a
reasonable person would have known
Harlow v. Fitzgerald, 457 U. S. 800, 818 (1982). The
litigation positions of the Government and the parties
seeking judicial redress from injury as a result of
executive agency action in each case diverge at Harlow
in the context of Pearson v. Callahan, 555 U.S. 223
(2009). In Pearson, the Supreme Court recognizes,
"Qualified
immunity balances two important
2

ll

interests—the need to hold public officials accountable
when they exercise power irresponsibly and the need
to shield officials from harassment, distraction, and
liability when they perform their duties reasonably."
Pearson at II, A.
The dispute arises in both cases identified as relevant
to this supplemental brief is whether the procedure
established by Saucier v. Katz, 533 U. S. 194 (2001) is
under the circumstances "the better approach to
resolving cases in which the defense of qualified
immunity is raised is to determine first whether the
plaintiff has alleged a deprivation of a constitutional
right at all." See Pearson at 555 U.S. (internal
citations omitted). Saucier was mandatory prior this
court's ruling in Pearson, the procedure stipulates: if
plaintiff satisfies "the first step to allege facts "(see
Fed. Rules Civ. Proc. 12(b)(6), (c)) or shown (see Rules
50, 56)" necessary "to make out a violation of a
constitutional right. 533 U. S., at 201" — "the court
must decide whether the right at issue was "clearly
established" at the time of defendant's alleged
misconduct. Ibid."
In each instance, parties allege constitutional and
statutory basis to bring suit against the Government
involving executive agency actions. In the context of
the Saucier v. Katz, in these cases, the district courts
are asked to defer to Government's concessions a
"violation of a constitutional right" may be discernible
enough to satisfy the first prong of Saucier and omit
consideration of the second prong "because qualified
immunity is "an immunity from suit rather than a
mere defense to liability ... it is effectively lost if a case
is erroneously permitted to go to trial." See Pearson at
II, A. paragraph 2. Here, "a specific duty is assigned
3

by law" for the Department of Justice and Department
of Veterans Affairs agencies to observe constitutional,
statutory, and procedural requirements, "and
individual rights depend upon the performance of that
duty, it seems equally clear that the individual who
considers himself injured has a right to resort to the
laws of his country for a remedy." See Marbury v.
Madison, 5 U.S. 137, 166 (1803).
II. It is emphatically the duty of the courts to
questions of law raised in this case.
"Our task is simply to interpret the law as an ordinary
person would. Although background presumptions
can inform the understanding of a word or phrase,
those presumptions must exist at the time of
enactment." Tanzin, et al v. Tanvir,et al, 592
U.S. 2020. 38 U.S.C. 211(a), the statutory provision
cited in Johnson v. Robison and Traynor v Turnage is
repealed and replaced by enactment of the
Department of Veterans Affairs Codification Act of
1991. Supreme Court silence on the implications of
enactment of the Department of Veterans Affairs
Codification Act of 1991 is stifling. The U.S. Court of
Appeals for Veterans Claims accords no effect to
precedent opinions of this Supreme Court or lower
courts on the question of whether it has jurisdiction to
review decisions involving "incident out of which the
suit arose under circumstances in which Congress has
provided by statute that the remedy provided by
the Federal Tort Claims Act is made the exclusive
remedy." See 28 CFR 15.4
To that end this court has recently determined, "We
first have to determine if injured parties can sue" in
this case, the United States under the exclusive
4

remedy provided by 28 U.S.C. 2679. The text of the
Administrative Procedure Act and 38 U.S.C. 511(a),
along with Department of Justice and Department of
Veterans Affairs regulations "give clear answer. They
can." Tanzin, et al v. Tanvir,et al, 592 U.S. 2020.
"The plain meaning of the phrase 5 U.S.C. 703 of the
APA applicable to form of proceedings and venue "in
the absence or inadequacy thereof' the Veterans
Judicial Review Act of 1988" in this case— agency
action is subject to judicial review in civil or criminal
proceedings for judicial enforcement" accordingly,
"individual may bring "any applicable form of legal
action...in a court of competent jurisdiction."
This resonates with the plain meaning of the text of
38 U.S.C. 511(a)(b)(4) which requires "the Secretary
shall decide all questions of law and fact necessary to
a decision by the Secretary under a law that affects
the provision of benefits by the Secretary to veterans
or the dependents or survivors of veterans." In the
event the Secretary declines to do so, the decision of
the Secretary shall not "be final and conclusive" and
cannot be construed as a "matter covered by Chapter
72", within the subject matter jurisdiction of the U.S.
Court of Appeals for Veterans Claims, established by
enactment of the Veterans Judicial Review Act of
1988. In this circumstance, "the second sentence of
subsection (a)", often cited the review restriction
clause "does not apply"— so the action may "be
reviewed by any other official...by any court...
whether by an action in the nature of mandamus or
otherwise."

5

III. Only plenary action by this Court can resolve
these questions of law.
District court rulings at issue were "predicated on the
constitutional tort theory of Bivens v. Six Unknown
Fed. Narcotics Agents, 403 U. S. 388, and...it could
not be determined as a matter of law" Tanzin or
Michael provide a "state of facts warranting recovery."
See Schweiker v. Chilicky, 487 U.S. 412 (1988). It is
indisputable. The Department of Veterans Affairs and
Department of Justice are "governed by
comprehensive procedural and substantive provisions
giving meaningful remedies against the United
States." See Bush v. Lucas 462 U. S. 367,374-390
(1983). So then similarly to the recent decision, the
question in this case must be answered— "whether an
elaborate remedial system that has been constructed
step by step, with careful attention to policy
considerations, should be augmented by the creation
of a new judicial remedy for the constitutional
violation at issue." See Bush supra. at 462 at 368, 380390.
Congress answers this question by statutory
amendment of the APA; grants of jurisdiction to the
U.S. District Courts, promulgation of regulations
applicable to procedural requirements for Board of
Veterans Appeals action and "claims asserted under
the Federal
Tort
Claims
Act,
including
such claims that are filed with VA." See 38 CFR
14.600(b). It is the duty of district courts to decide
"even "assuming the challenged conduct involves an
element of judgment," it remains to be decided
"whether that judgment is of the kind that the
discretionary function exception was designed to

6

shield." United States v. Gaubert, 499 U.S. 315,
322,323 (1991)
"The Government posits that we should be wary of
damages against government officials because these
awards could raise separation-of-powers concerns."
Tanzin, et al v. Tanvir,et al, 592 U.S. 2020. Still, by
motions of Government counsel, courts are asked to
summarily act beyond Article III and statutory
authority "to modify, abridge or enlarge the
substantive; rights of litigants or to enlarge or
diminish the jurisdiction of federal courts; fail to
strictly construe waivers of sovereign immunity."
United States v. Sherwood, 312 U.S. 584, 585-590
(1941). Moreover, "courts are not at liberty to pick and
choose among congressional enactments...it is the
duty of the courts, absent a clearly expressed
congressional intention to the contrary, to regard each
as effective." See Morton v. Mancari,417 U.S. 535, 551
(1974).
The lower courts dilemma is exacerbated by executive
actions in conduct of litigation —act consistent with
Article III and statutory authority and duties and
renounce Supreme Court precedent controlling or
leave to this Supreme Court its "prerogative of
overruling its own decisions" or continue to defer to
the Government's litigation position in the absence of
Supreme Court precedent speaking consistent with
existing congressional policy applicable to judicial
enforcement of laws affecting provision of VA benefits
by the Secretary. See R. de Quijas v. Shearson/Am.
Express, 490 U.S. 477,111, paragraph 1.

7

To resolve these questions of law will serve as a check
on executive agency power, achieve a uniform
interpretation of similar statutory language, and
correct a seriously erroneous interpretation of
statutory language that would undermine
congressional policy as expressed in other legislation.
CONCLUSION
The Court should vacate the orders and issue a writ of
mandamus to the district court ordering it to exercise
its Article III and statutory authority to review the
"incident out of which the suit arose under
circumstances in which Congress has provided by
statute that the remedy provided by the Federal Tort
Claims Act is made the exclusive remedy." See 28 CFR
15.4. In the alternative, the Court should treat this as
a petition for certiorari, grant the petition, and reverse
the court of appeals decision below.
Respectfully submitted,
/s/ Stephanie Michael
Stephanie Michael
Petitioner Pro Se
Email: itsfubar2020@yahoo.com

8

